Former Executive Director Sentenced for Misuse of Federal and
StateGrant Funds (March 2002)

Mr. Donald S. Murdock, former Executive Director, Coosa Valley Regional
Services & Development Corporation, pled guilty on March 8, 2002, in Floyd
County Superior Court, Rome, GA, to one count of Theft by Taking. Mr. Murdock
was sentenced by the Honorable F. Lany Salmon to five years supervised
probation, assessed a $23.00 per month probation fee, and required to make
restitution of $32,432.11, of which $2,347.27 were Retired Senior Volunteer
Program (RSVP) funds.

Coosa Valley Regional Services & Development Corporation is a non-profit
organization that sponsors a RSVP. A program audit discovered that Mr.
Murdock expended RSVP funds for questionable purchases. An investigation by
the Corporation for National and Community Service’s Office of Inspector
General found evidence that Mr. Murdock used RSVP funds to make purchases
for his personal use. The Office of Inspector General investigation caused State
auditors to review State grants awarded to Coosa Valley Regional Services &
Development Corporation. The State auditors found that Mr. Murdock awarded
unauthorized pay increases and benefits to himself and his staff.
